USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 1 of 8

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 21-11013-F
KIRBY GANT,
Petitioner-Appellant,
versus

UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Kirby Gant is a federal prisoner serving a 260-month total sentence for possession with,
intent to distribute crack cocaine and hydrocodone, possession of a firearm in furtherance of a
drug-trafficking crime, and being a felon in possession of a firearm and ammunition. In the instant,
pro se 28 U.S.C. § 2255 motion, he argued that:
(1) his conviction and sentence for the felon-in-possession charge were
unconstitutional under Rehaif v. United States, 139 S. Ct.2l9l (2019),
(2) his prior convictions were insufficient to support his classification as an armed
career criminal, pursuant to Shular v. United States, 140 S. Ct. 779 (2020), and
(3) counsel committed cumulative errors by failing to (a) object to the indictment’s
failure to allege a specific drug quantity for the drug possession charge, and
(b) raise a double jeopardy issue regarding the felon-in-possession charge and the
possession of a firearm charge involving the same firearm.

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 2 of 8

As to Claim 1, Gant argued that he was actually innocent of the felon-in-possession charge
under Rehaif, given that the indictment did not charge, and the government did not prove, that he
knew that he was a felon when he possessed the firearm. As to Claim 2, he argued that, under
Shular, none ofhis prior state convictions could be used to classify him as an armed career criminal
because they did not require a mens rea element. He further asserted that counsel was ineffective
by failing to raise this issue in any of the below proceedings.
As background, in 2016, a grand jury indicted Gant for: (1) possession with intent to
distribute crack cocaine and hydrocodone (“Count 1”), in violation of 21 U.S.C. § 841(a)(1),
(b)(1)(C); (2) possession of a firearm in furtherance of a drug-trafficking crime, namely, the
offense charged in Count 1 (“Count 2’*), in violation of 18 U.S.C. § 924(c)(l)(A)(i); and (3) being
a felon and knowingly possessing a firearm and ammunition (“Count 3”), in violation of 18 U.S.C.
§ 922(g)(1) and § 924(e). Count 3 was based on Gant’s prior Florida convictions, including: (1) a
1985 conviction for robbery with a firearm or deadly weapon; (2) a 1987 conviction and a 1993
conviction for sale or purchase of cocaine; (3) two 2000 convictions and a 2005 conviction for
sale/delivery of cocaine; and (4) a 2015 conviction for possession of cocaine.
After a bench trial, a district court judge found Gant guilty as charged. The presentence
investigation report (“PSI”) designated him as an armed career criminal under § 924(c), which
subjected him to a mandatory minimum of 15 years’ imprisonment as to Count 3. Ultimately, the
court sentenced him to 200 concurrent months’ imprisonment as to Counts 1 and 3, and 60
consecutive months’ imprisonment as to Count 2. On appeal, Gant argued that the district court
erred by denying his pre-trial motion to suppress the evidence, and this Court affirmed. In January
2020, Gant filed the instant § 2255 motion.

2

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 3of 8

The district court denied Gant’s motion, finding that Claims 1 and 2 were procedurally
defaulted, and Claim 3 was meritless. As to Claims 1 and 2, the district court found that they were
procedurally defaulted because he failed to raise them on direct appeal. The court further found
that Gant had not demonstrated cause and prejudice to excuse the procedural default. As to Claim
1, the court found that his Rehaif claim was not novel, as other defendants had been
“unsuccessfully litigating the issue for years,” Counsel also was not ineffective for failing to raise
this claim, as counsel is not deficient for failing to anticipate a change in the law. Accordingly,
the court found that Gant had not demonstrated cause to excuse the procedural default of Claim 1.
As to Claim 2, the court found that Gant could not establish prejudice to excuse the
procedural default, as the Supreme Court eventually decided Shular adversely to him,2 confirming
that his prior drug convictions were sufficient to support an armed career criminal designation.
Accordingly, the court found, counsel was not ineffective for failing to raise a meritless argument.
Moreover, the court found, Garit had not shown actual innocence, but rather, his Rehaifand Shular
claims merely challenged the legal sufficiency of his convictions.
As to Claim 3, the district court found that his claims of ineffective assistance of counsel
were meritless because: (1) a crack cocaine violation under § 841(b)(1)(C) did not require the
government to plead or prove any particular drug quantity; and (2) the felon-in-possession and
possession of firearm charges did not constitute double jeopardy violations because they required
proof of different elements. Accordingly, the district court denied Gant’s motion, denied him leave
to proceed in forma pauperis (“IFP”) on appeal, and denied him a certificate of appealability
(“COA”). Gant now seeks IFP status and a COA from this Court.

2 Gant relied upon the arguments made in Shular on appeal, which the Supreme Court
ultimately rejected.
3

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 4 of 8

DISCUSSION:
To obtain a COA, a movant must make “a substantial showing; of the denial, of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

The movant satisfies this requirement by

demonstrating that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong, or that the issues deserve encouragement to proceed
further. Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotation marks omitted). Where the
district court denied a motion to vacate on procedural grounds, the movant must show that
reasonable jurists would debate (1) whether the motion states a valid claim of the denial of a
constitutional right, and (2) whether the district court was correct in its procedural ruling. Id.
To establish ineffective assistance of counsel, a defendant must show both that (1) his
counsel’s performance was deficient, and (2) the deficient performance prejudiced his defense.
Strickland v. Washington, 466 U.S. 668,687 (1984). Because counsel’s performance is presumed
to be reasonable, the movant must demonstrate that no competent counsel would have taken the
action that counsel took. Chandler v. United States, 218 F.3d 1305, 1315 (11th Cir. 2000) (en
banc). “[Reasonably effective representation cannot and does not include a requirement to make
arguments based on predictions of how the law may develop.” Spaziano v. Singletary, 36 F.3d
1028, 1039 (11th Cir. 1994) (quotation marks omitted). Further, counsel is “not ineffective for
failing to raise a nonmeritorious issue.” Chandler v. Moore, 240 F.3d 907, 917 (11th Cir. 2001).
In 2019, the Supreme Court, in Rehaif interpreted the statutory language of § 922(g) as
requiring a defendant to know both that he possessed a firearm and that he had been convicted of
a crime punishable by imprisonment for more than one year. 139 S. Ct. at 2200. We have since
held that Rehaif "did not announce a ‘new rule of constitutional law,’ but, instead, clarified that,
in prosecuting an individual under 18 U.S.C. § 922(g) and 18 U.S.C. § 924(a)(2)... the

4

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 5 of 8

government must prove that the defendant knew he violated each of the material elements of
§ 922(g),” In re Palacios, 931 F.3d 1314,1315 (11th Cir. 2019) (emphasis omitted).
Ordinarily, a defendant convicted of being a felon in possession of a firearm, in violation
of § 922(g)(1), faces a maximum sentence of ten years’ imprisonment. 18 U.S.C. § 924(a)(2).
However, if the offender's prior criminal record includes at least three convictions for “serious
drug offense[s]”, the Armed Career Criminal Act (“ACCA”) mandates a minimum sentence of 15
years1 imprisonment. Id, § 924(e)(1).
In February 2020,the Supreme Court in Shular held that the definition of “serious drug
offense” does not require that the state offense match the elements of certain generic offenses, but
instead, requires only that the state offense involve the specific conduct identified in the federal
statute. Shular, 140 S. Ct. at 788. In doing so, the Supreme Court rejected the movant’s argument
that his prior Florida convictions—for selling, manufacturing, delivering, or possessing with intent
to sell, manufacture, or deliver cocaine—did not constitute serious drug offenses because they did
not require a specific mens rea, unlike other generic sale and possession of narcotic offenses. Id.
at 787-88.
A § 2255 claim may be procedurally defaulted if the movant failed to raise the claim on
direct appeal. Bousleyv. United States, 523 U.S. 614,622 (1998). A defendant can overcome this
procedural bar by establishing either: (1) cause for the default and actual prejudice from the alleged
error; or (2) actual innocence of the crimes for which he was convicted. Howard v. United States,
374 F.3d 1068,1072 (11th Cir. 2004).
“The novelty of a claim may constitute cause for excusing the procedural default, but only
when the claim is truly novel, meaning that its legal basis [was] not reasonably available to
counsel.” United States v. Bane, 948 F.3d 1290, 1296-97 (2020) (quotation marks omitted,

5

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 6of 8

alteration in original). Unlike claims based on new rules of constitutional law, claims based on
purely statutory interpretations are not novel, as “[a]n argument for an interpretation of a statute
that is consistent with its ordinary meaning and structure is not something that counsel would not
be aware of or that courts would reject out of hand.” Id. at 1297 (quotation marks and alteration
omitted). Accordingly, we recently determined that “Rehaif was not ‘truly novel’ in the sense
necessary to excuse procedural default.” Innocent, 977 F.3d at 1084.
Additionally, “[ineffective assistance of counsel may satisfy the cause exception to a
procedural bar,” if the ineffective assistance of counsel claim has merit. United States v. Nyhuis,
211 F.3d 1340, 1344 (11th Cir. 2000). As to the actual innocence exception, a movant must
establish that, in light of new reliable evidence that was not presented at trial, “it is more likely
than not that no reasonable juror would have convicted him.” Schlup v. Delo, 513 U.S. 298, 327
(1995).
Here, the district court properly found that Claims 1 and 2 were procedurally defaulted,
given that Gant failed to raise either claim on direct appeal. See Bousley, 523 U.S. 614, 622. As
to Claim 1, the district court properly found that Gant had failed to establish cause to excuse the
procedural default, as a Rehaif claim involves a purely statutory interpretation of § 922(g) and
§ 924(a), rather than a new rule of constitutional law, and thus is not “truly novel.” See Howard,
374 F.3d at 1072; Rehaif 139 S. Ct. at 2200; Palacios, 931 F.3d at 1315; Bane, 948 F.3d at
1296-97; Innocent, 977 F.3d at 1084. Moreover, counsel’s failure to raise this claim previously
does not constitute cause, as counsel was not ineffective for failing to object to the indictment
based on predictions of how the law may develop. See Spaziano, 36 F.3d at 1039.
The district court also properly found that Gant had not established cause to excuse the
procedural default of Claim 2. His argument regarding the lack of mens rea element for his prior

6

F

USCA11 Case: 21-11013

Date Filed: 07/30/2021

Page: 7 of 8

state convictions is foreclosed by the Supreme Court’s decision in Shular, and thus, counsel was
not ineffective for failing to raise this nonmeritorious issue, See Shular, 140 S. Ct. at 787-88;
Chandler, 240 F.3d at 917. Moreover, Gant’s claims of factual innocence are not sufficient to
excuse his procedural default of either Claims 1 or 2, as he merely challenges the legal sufficiency
of his convictions and does not provide any evidence of his actual innocence. See Schlup, 513
U.S. at 327(1995).
As to Claim 3(a), the indictment was not required to charge a specific drug quantity
amount, given that the statutory minimum for that offense was not increased based on any drug
amount, See Apprendi v. New Jersey, 530 U.S. 466,484,490 (2000) (holding that any fact, other
than the fact of a prior conviction, that increases the prescribed range of penalties to which a
criminal defendant is exposed are elements of the crime and must be found by a jury beyond a
reasonable doubt); see alsoAlleyne v. United States, 570 U.S. 99, 111, 116 (2013) (extending the
holding in Apprendi to conclude that facts that increase mandatory minimum sentences must also
be submitted to the jury).
As to Claim 3(b), Counts 2 and 3 did not implicate double jeopardy concerns. An
indictment only violates double jeopardy when it charges a single offense in more than one count.
United States v. Gonzalez, 834 F.3d 1206, 1219 (2016). An indictment does not charge a single
offense in more than one count where each count requires proof of a fact which the other does not.
Id.

Here, a conviction under § 922(g)(1) requires proof that the defendant was a felon prior to

possessing the firearm, while a conviction under § 924(c) requires no such element, and a
conviction under § 924(c) requires proof that a defendant possessed a firearm in furtherance of a
drug-trafficking crime, while a conviction under § 922(g)(1) does not. See 18 U.S.C. § 922(g)(1);

7

USCA11 Case: 21-11013

L8 U.S.C. § 924(c).

Date Filed: 07/30/2021

Page: 8 of 8

Thus, counsel was not ineffective for failing to raise either of the

nonmeritorious arguments presented, in Claim 3.
Accordingly, Gant’s motion for a COA is DENIED, and his motion to proceed IFP is
DENIED as MOOT.

S QRCUfr JUDGE

A

8

8

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 1 of 11 PagelD 92

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
KIRBY GANT,
Petitioner,
Case No: 8:20-cv-34-T-30CPT
Crim. Case No: 8:16-cr-531-T-30CPT

v.

UNITED STATES OF AMERICA,
Respondent.

ORDER
This cause is before the Court upon Kirby Gant’s Motion to vacate, set aside, or
l

correct sentence filed pursuant to 28 U.S.C. § 2255 (Civ. Dkt. ll). Also, before the Court
is Gant’s Memorandum of Law in Support of his Motion (Civ. Dkt. 2), the Government’s
Response (Civ. Dkt. 4), and Gant’s Reply (Civ. Dkt. 5). Having reviewed the pleadings
and considered the relevant case law, the Court concludes that the Motion fails because it
lacks merit and is procedurally defaulted.
FACTUAL BACKGROUND
The facts surrounding Gant’s arrest are as follows:
On December 5, 2016, at approximately 3:48 a.m., several
Bradenton Police Department (BPD) officers were on patrol on foot in
Bradenton, Florida.
The officers then walked into the rear of the lot located behind 312
12th Ave. W. in Bradenton, Florida.
The officers saw a green SUV with a single occupant, later
identified as the defendant, Kirby Gant, in the vehicle.
The officers approached the vehicle. Officer Christopher Capdarest
approached the driver's side, where Mr. Gant was located inside the

Case No.: 8:20-cv-34-T-30CPT

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 2 of 11 PagelD 93

vehicle. Officer Bryan Stay approached the passenger side window.
Officer Capdarest said "Hey bud," to Mr. Gant when he
approached the driver's side. Simultaneously, Officer Stay observed a gun
from the passenger side window and announced the presence of the firearm
to the other officers by yelling out "Gun."
Mr. Gant attempted to force his way past the officers. Gant was
then arrested.
Police then searched Mr. Ganfs person. On Gant's person, officers
found 9.6 grams of marijuana, 7.2 grams of hydrocodone, and $1192 in
cash.
Police also searched the vehicle and found 7.5 grams of cocaine base
and a Hi-Point 9mm handgun together in the cup holder. The handgun had
one 9mm bullet in the chamber and eight 9mm bullets in the magazine. It
also had an obliterated serial number.
After the searches, Officer Capdarest contacted BPD dispatch,
which searched Mr. Gant's record for felony convictions. That search
came back positive. Mr. Gant is a convicted felon who has not had his
right to own or possess a firearm or ammunition restored.
ATT Special Agent Nicholas Vouvalis, an interstate nexus expert,
examined the firearm and ammunition to determine where the items had
been manufactured. SA Vouvalis determined that the firearm was
manufactured in Ohio. He also determined that the ammunition was
manufactured in Yugoslavia.
The Manatee County Sheriffs Office Forensic Chemistry prepared a
report finding 5.543 grams of cocaine base and 6.369 grams of
hydrocodone and acetaminophen.
Crim. Dkt. 61-12.
A Grand Jury indicted Gant on three counts:
Count One:

Possession with Intent to Distribute Cocaine Base in violation of 21
U.S.C.§ 841(a)(1),

Count Two: Possession of a Firearm in Furtherance of a Drug-Trafficking Crime
in violation of 18 U.S.C. § 924(c), and
Count Three: Possession of a Firearm after being Convicted of a Felony in
violation of 18 U.S.C. § 922(g)(1).
Crim. Dkt. 1.

The Indictment also listed seven of Gant’s twenty-two prior felony

2 Case No.: 8:16-cr-531-T-30CPT
2

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 3 of 11 PagelD 94

convictions and alleged that he was subject to a 15-year mandatory-minimum sentence
under the Armed Career Criminal Act, 18 U.S.C. § 924(e).
Gant filed a motion to suppress the evidence located during his arrest. The Court
denied the motion. In order to preserve his rights to appeal the suppression ruling, Gant
agreed to a bench trial upon stipulated facts (Crim. Dkt. 51). And Gant stipulated to the
essential elements of each offense. Gant admitted that he knowingly possessed a firearm
despite having prior felony convictions. The Court found him guilty on all counts. (Crim.
Dkt. 60).
At sentencing, the Presentence Report showed Gant’s advisory guidelines to be 322
to 387 months’ imprisonment (PSR, Crim. Dkt. 66,

148-150). Because of his prior

conviction, Count Three, the felon-in-possession count, carried a mandatory-minimum
sentence of 15 years’ imprisonment.

18 U.S.C. §§ 922(g), 924(e). Because he carried a

firearm to further his drug trafficking offense, Count Two had a mandatory-minimum
consecutive sentence of 5 years’ imprisonment.

18 U.S.C. § 922(c).

The Court

sentenced Gant to a below guideline sentence of 260 months imprisonment, 200 months
on Counts One and Three, and 60 months consecutive on Count Two.
Gant appealed, not his sentence but the Court’s denial of his motion to suppress.
The 11th Circuit affirmed and the Supreme Court denied cert, on April 1, 2019. (Crim.
Dkt. 81 at 7, Crim. Dkt. 83).
Gant timely filed this § 2255 motion on January 6, 2020. He raised three arguments
(other than his timeliness argument) why his convictions and sentences should be vacated:
Ground One:

his conviction and sentence is unconstitutional as to the
felon-in-possession of a firearm charge because the
Government did not plead and prove that he knew that he
3

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 4 of 11 PagelD 95

was a felon when he possessed a firearm and he is
“actually innocent” of that knowledge based on Rehaif v.
United States,, 139 S.Ct. 2191, 204 L. Ed. 2nd 549 (2019)
{Rehaif claim),
Ground Two:

his prior drug convictions were insufficient to support his
classification as an Armed Career Criminal based on
Shular v. United States, 140 S. Ct. 779, 206 L. Ed. 2nd 81
(2020) {Shular claim), and

Ground Three:

his counsel committed cumulative errors constituting
ineffective assistance of counsel.
DISCUSSION

Gant’s claims fail because they are procedurally defaulted.

He defaulted them

twice: once by failing to raise them before this Court and secondly by failing to raise them
on direct appeal.
A motion to vacate under § 2255 is not a substitute for direct appeal. Claims that
were available for direct appeal, but not raised, are procedurally defaulted and barred from
consideration on collateral review unless one of two narrow exceptions are met. Bousley
v. United States, 523 U.S. 614, 118 S. Ct. 1604 (1998). To overcome a procedurally
defaulted claim, a movant must (1) demonstrate either cause and actual prejudice, or (2)
actual innocence. Bousley, 523 U.S. at 622-23. Gant does not meet either of these
exceptions.
1.

The Cause and Prejudice Exception

To meet the cause and prejudice exception, a convicted defendant must show both
(1) cause excusing his procedural default, and (2) actual prejudice. United States v. Frady,
456 U.S. 152, 102 S.Ct. 1584(1982). That is, a claimant “must show cause for not raising
the claim of error on direct appeal and actual prejudice from the alleged error.” Lynn v.

4

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 5 of 11 PagelD 96

United States, 365 F. 3d. 1225, 1234 (11th Cir. 2004) (emphasis in original).
To show cause for failing to raise the claim at trial and on direct appeal, Gant must
show that something prevented him from raising it. Futility, by itself, is not sufficient.
Bousley, 523 U.S. at 623. The novelty of a claim may constitute cause to excuse a procedural
default but only if the claim is so unusual that the petitioner’s counsel lacked the tools to
make the claim. Pitts v. Cook, 923 F. 2d. 1568 (11th Cir. 1991). And, a claimant can
establish cause in some circumstances by showing that the default resulted from
constitutionally ineffective assistance of counsel.
Here, Gant has not established the novelty required to satisfy the cause requirement,
nor has he shown ineffective assistance of counsel. As to novelty, Gant’s Rehaifclaim was
not novel. Other defendants have been unsuccessfully litigating the same issue for years.
See, e.g., United States v. Jackson, 120 F. 3d. 1226 (11th Cir. 1997) (citing United States v.
Langley, 62 F. 3d. 602 (4th Cir. 1995), and United States v. Dancy, 861 F. 2nd 77 (5th Cir.
1988). As to ineffective assistance of counsel, an attorney does not perform deficiently by
failing to anticipate a change in the law.

Viers v. Warden, 605 F. App’x 933, 942 (11th

Cir. 2015). The 11th Circuit has held many times that effective legal representation does
not include a requirement to predict how the law may develop. Spaziano v. Singletary, 36
F. 3d 1028, 1039 (11th Cir. 1994).

So, in this case, neither novelty nor ineffective

assistance of counsel will serve to excuse Gant’s procedural default.
Because Gant has failed to meet the cause prong, the Court need not examine the
prejudice prong, but Gant would fail on that prong as well. To establish prejudice, a
claimant must show that an error worked not to his possible prejudice, but “to his actual
and substantial disadvantage, infecting his entire [proceeding] with error of constitutional
5

Case 8:20-cv-00034-JSM-CPT

dimension.”

Document 6

Filed 01/04/2021

Page 6 of 11 PagelD 97

Frady, 456 U.S. at 170 (emphasis in the original).

Prejudice must be

evaluated in the total context of the events in the trial court. Id. at 169 (stating that a
challenged jury instruction is but one out of many events in a trial process).
A review of the entire record to determine whether Gant has been prejudiced is
similar to that made recently on a Rehaif claim in a direct appeal by the 11th Circuit.
United States v. Reed, 941 F. 3d. 1018 (11th Circuit 2019). In Reed, as here, a defendant
claimed his indictment failed to allege, and the jury was not instructed to find, that he knew
he was a felon when he possessed a firearm. Although Reed established Rehaiferror, both
in his indictment and at his trial, his appeal was denied because he failed to show a
reasonable probability that, but for the errors, the outcome of his trial would have been
different. The 11th Circuit concluded that Reed’s jury could have inferred that he knew
that he was a felon based on his stipulations, admissions, eight prior felony convictions, and
service of 18 years in prison before possessing the firearm.
If a Rehaiferror does not warrant reversal on direct appeal on Reed’s record, Gant’s
record certainly is insufficient to constitute prejudice on collateral review. “To obtain
collateral relief a prisoner must clear a significantly higher hurdle than would exist on direct
appeal.” United States v. Frady, 456 U.S. 152, 166 (1982).
While Gant has shown a Rehaif error - the indictment did not allege and the
stipulation of facts at trial did not prove he knew he was a felon when he possessed the
i

firearm - a review of his record shows that he was not prejudiced. The record contains
overwhelming evidence that Gant knew he was a convicted felon at the time he possessed
the firearm. Gant had twenty-two prior felony convictions, seven of which were listed in his
indictment to support his armed career criminal status. One of his prior felony convictions
6

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 8 of 11 PagelD 99

legal, not factual, innocence. So, Gant fails to demonstrate his factual innocence and does
not overcome his procedural default.
Gant does address his factual innocence in one respect when he claims he had not
previously been convicted for possession of a firearm while being a felon:
Movant has never in the past been convicted for possession of a firearm, nor
charged in the past for possession of a firearm. The Government is
misleading the Court by stating that Movant was in the past arrested for a
firearm, Movant has never ever in the past been arrested for firearm
possession. The Government is mistaken.
(Gant’s Reply, Civ. Dkt. 5, p. 14). But this contention is belied by Gant’s factual admission
at sentencing.
At his sentencing, Gant admitted the facts contained in the Presentence Report were
correct. (Crim. Dkt. 88, p. 4). In doing so, Gant admitted that he was previously convicted
of possession of a firearm by a convicted felon on April 29, 1991. The facts underlying
that conviction are:
04/29/1991: Cts. 1-3

4A1.2(e) 0

12/26/1990

1) Assault;

(Age 29)

Pled nolo contendere,
2) Possession of
Firearm by Convicted adjudicated guilty, Cts.
1 & 3: Time served jail;
Felon; and
3) Culpable Negligence and Ct. 2: 364 days jail
sentence consecutive to
Circuit Court
89CF3200
Manatee County, FL

According to the probable cause affidavit, on December 24, 1990, at
approximately 5:25a.m., a Bradenton Police Department officer met with
the victim, B.P. at Manatee Memorial Hospital. B.P. advised that he was
exiting an apartment when Gant ran up to him while holding a handgun
in his right hand. Gant then demanded that B.P. give him his money. A
fight ensued, and Gant and B. P. began to wrestle. During the altercation,
one shot was fired from the gun. B.P. then fell to the ground and realized
that he had been shot on the inside of his right thigh. Gant also stood up,
demanded B.P.'s money once again, and struck B.P. in the head with the
gun, causing a deep laceration. Gant then fled the scene.
8

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 9 of 11 PagefD 100

B.P. was hospitalized until December 26, 1990. During that time, the
bullet was removed from his thigh. B.P.'s girlfriend also witnessed the
assault and provided a sworn witness statement to law enforcement.
Gant was ultimately arrested on December 26, 1990, at approximately
1:45 p.m.
On January 23, 1991, the Assistant State Attorney filed a Notice of Case
Action indicating that charges would not be filed as to Attempted Armed
Robbery and Aggravated Battery.
(PSR, Crim. Dkt. 66, pp. 13-14).
So, this factual argument is refuted by the record.
3. Gant’s Cumulative Error Argument
As his final argument, Gant contends his counsel’s cumulative errors constituted
ineffective assistance of counsel. He argues that his counsel should have (1) objected to
the Indictment’s failure to allege a specific drug quantity in the 21 U.S.C. § 841 (a)(1)
charge and (2) counsel should have raised a double jeopardy issue because the felon-in­
possession of a firearm charge under 18 U.S.C. § 922(g)(1) and the use of a firearm in
furtherance of a drug trafficking charge pursuant to 18 U.S.C. § 924(c) relied on his
possession of the same firearm. (Civ. Dkt. 2, pp. 27-28).
These arguments lack merit.

A crack cocaine violation under 21 U.S.C. §

841(b)(1)(C) does not require the United States to plead or prove any particular drug
quantity and the two firearm charges do not constitute double jeopardy because they do not
require proof of the same elements. If proof of the offenses requires proof of a different
element, there is no double jeopardy. Blockburger v. United States, 284 U.S. 299 (1932).
A conviction under § 922(g)(1) requires proof that a defendant was a felon prior to
possessing the firearm while a conviction under § 924(c) does not. A conviction under §
9

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 10 of 11 PagelD

101
924(c) requires proof that a defendant possessed a firearm in furtherance of a drug
trafficking crime while a conviction under § 922(g)(1) does not. Therefore, there is no
double jeopardy violation.
CONCLUSION
Since all of Gant’s claims are procedurally defaulted, his § 2255 motion must be
dismissed. It is therefore ORDERED AND ADJUDGED that:
1.

Petitioner’s Motion, under 28 U.S.C. § 2255, to Vacate, Set Aside, or Correct
Sentence (Civ. Dkt. 1) is DISMISSED WITH PREJUDICE.

2.

The Clerk is directed to close this case.

3.

The Clerk is directed to terminate from pending status the motion to vacate
found at Dkt. 84 in the underlying criminal case, case number 8:16-cr-531-T30CPT.
CERTIFICATE OF APPEALABILITY AND LEAVE TO APPEAL
IN FORMA PAUPERIS DENIED

IT IS FURTHER ORDERED that Petitioner is not entitled to a certificate of
appealability. A prisoner seeking a writ of habeas corpus has no absolute entitlement to
appeal a district court’s denial of his petition. 28 U.S.C. § 2253(c)(1). A district court must
first issue a certificate of appealability (“COA”). Id. “A [COA] may issue . . . only if the
applicant has made a substantial showing of the denial of a constitutional right.” Id. at §
2253(c)(2). To make such a showing, Petitioner ‘“must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong,’”
Tennard v. Dretke, 542 U.S. 274, 282 (2004) (quoting Slack v. McDaniel, 529 U.S. 473, 7
484 (2000)), or that “the issues presented were adequate to deserve encouragement to
10

Case 8:20-cv-00034-JSM-CPT

Document 6

Filed 01/04/2021

Page 11 of 11 PagelD

102
proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (internal quotation marks
omitted). Petitioner has failed to meet this burden.
Finally, because Petitioner is not entitled to a certificate of appealability, he is not
entitled to appeal in forma pauperis.
DONE and ORDERED in Tampa, Florida, this 4th day of January, 2021.

JAMJtis S. MOODY, JR.
UNITED STATES DISTRICT JUDGE

Copies furnished to:
Counsel/Parties of Record

j

11

